No. 20-222
GOLDMAN SACHS GROUP, INC., ET AL.,
Petitioners,
V.

ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS

I, Anthony G. Lantagne, hereby certify that the above referenced BRIEF OF AMICUS
CURIAE WASHINGTON LEGAL FOUNDATION IN SUPPORT OF PETITIONERS, as
indicated by the word count feature of MS Word, and including footnotes but excluding
those parts enumerated for exclusion under the rules, contains 5,089 words.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 1st day of February, 2021.

y .L

t:onTT'"'->F

Lantagn egal Printing, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-0477

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me this 1st day ofJ.eh~2021, and at sted
that the foregoing certificate is true and exact tot . best of his kndwledge a
elief.

